Audit Report



Return
    to the USDOJ/OIG Home Page




Cooperative Agreements with the Institute for Security Technology Studies at Dartmouth College, Hanover, New Hampshire


GR-70-02-004
 
September 2002

Office of the Inspector General

EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of the Cooperative Agreements with The Institute for Security Technology Studies at Dartmouth College (ISTS).  The cooperative agreements were awarded by the U.S. Department of Justice (DOJ), National Institute of Justice (NIJ) to the Trustees of Dartmouth College (the Trustees).  The purpose of the agreements was to establish the ISTS as a principal national center for counterterrorism technology research, development, assessment, and to provide technical support for the NIJ, Office of Science and Technology.  Between March 2000 and May 2002 the Trustees were awarded a total of $23,558,283 to study and develop technologies to address counterterrorism issues in the areas of:  threat characterization and intelligence, threat detection and interdiction, preparedness and protection, and response and recovery.
We tested the ISTS's accounting records to determine if reimbursements claimed for costs under the cooperative agreements were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the agreements.
In each of the areas tested we found reimbursements claimed for costs incurred under the agreements by the ISTS were allowable, supported and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the agreement. 
The results of the audit are discussed in detail in the Findings section of the report.  Our audit objectives, scope and methodology appear in the Appendix.